<html>
<title> - SHIFTING SANDS: POLITICAL TRANSITIONS IN THE MIDDLE EAST, PART 2</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
    SHIFTING SANDS: POLITICAL TRANSITIONS IN THE MIDDLE EAST, PART 2

=======================================================================



                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                     THE MIDDLE EAST AND SOUTH ASIA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 5, 2011

                               __________

                           Serial No. 112-28

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______




                  U.S. GOVERNMENT PRINTING OFFICE
66-173                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

             Subcommittee on the Middle East and South Asia

                      STEVE CHABOT, Ohio, Chairman
MIKE PENCE, Indiana                  GARY L. ACKERMAN, New York
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
ANN MARIE BUERKLE, New York          DENNIS CARDOZA, California
RENEE ELLMERS, North Carolina        BEN CHANDLER, Kentucky
DANA ROHRABACHER, California         BRIAN HIGGINS, New York
DONALD A. MANZULLO, Illinois         ALLYSON SCHWARTZ, Pennsylvania
CONNIE MACK, Florida                 CHRISTOPHER S. MURPHY, Connecticut
MICHAEL T. McCAUL, Texas             WILLIAM KEATING, Massachusetts
GUS M. BILIRAKIS, Florida
TOM MARINO, Pennsylvania


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Michael H. Posner, Assistant Secretary, Bureau of 
  Democracy, Human Rights, and Labor, U.S. Department of State...     5
Ms. Tamara Wittes, Deputy Assistant Secretary, Bureau of Near 
  Eastern Affairs, U.S. Department of State......................     7

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Michael H. Posner and Ms. Tamara Wittes: Prepared 
  statement......................................................     9

                                APPENDIX

Hearing notice...................................................    32
Hearing minutes..................................................    33
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    35


    SHIFTING SANDS: POLITICAL TRANSITIONS IN THE MIDDLE EAST, PART 2

                              ----------                              


                         THURSDAY, MAY 5, 2011

              House of Representatives,    
                Subcommittee on the Middle East    
                                        and South Asia,    
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:14 p.m., in 
room 2172, Rayburn House Office Building, Hon. Steve Chabot 
(chairman of the subcommittee) presiding.
    Mr. Chabot. The subcommittee will come to order.
    I apologize for the delay here. We had our last vote prior 
to this hearing, and Members of Congress traditionally head out 
like scalded dogs, quite frankly, after last votes. The votes 
were supposed to be after this hearing when it was originally 
set up, so I apologize for the few members on both sides. But 
we appreciate the gentleman from Kentucky, Mr. Chandler, for 
being here so that we can get started. We have to have two 
members present before you can start a meeting, so that is what 
I was waiting for. I would have started right away.
    The subcommittee, as I say, has now come to order. I want 
to wish everyone a good afternoon. I also want to welcome Mr. 
Chandler especially for being here this afternoon for this 
hearing.
    This is the Foreign Affairs Subcommittee on the Middle East 
and South Asia. This hearing was called to assess the current 
trajectory of the political transitions in the Middle East and 
to examine U.S. policy toward the region as it stands today.
    For the past 4 months, the world has witnessed 
unprecedented changes throughout the Middle East and North 
Africa. The peaceful protests that began at the end of last 
year continue to shake the region to its core. The power 
structures that have defined the region for decades continue to 
crumble as protesters take to the streets by the thousands. 
Unlike in the past, however, they were not protesting against 
the United States nor were they protesting against Israel. 
Instead, they were protesting for their own God-given human and 
universal rights to life, liberty, and the pursuit of 
happiness.
    This unrest, however, has not been without its challenges. 
Across the region, from Libya to Yemen, entrenched regimes have 
sought to maintain their stranglehold on power by any means 
necessary. In Yemen, Ali Abdullah Saleh supported and then 
rejected an agreement to step down from power. In Syria, Bashar 
al-Assad's ongoing and ruthless murder of peaceful protesters 
has already claimed the lives of hundreds of Syrian citizens. 
In Bahrain, the government's targeted crackdown has resulted in 
the indiscriminate imprisonment of swaths of the country's 
Shiite population. Most recently, a Bahraini military court in 
a closed-door trial sentenced four protesters to be executed.
    Syria is particularly a cause for concern. To date, the 
Obama administration's response to the brutal crackdown in 
Syria has been, in many people's view, tepid and disappointing. 
The few messages that have been sent have been mixed at best, 
and it does not appear that the administration has any Syria 
policy beyond engagement. The administration has implemented 
symbolic but largely ineffective sanctions, including against 
several members of the regime, not including Bashar al-Assad 
himself. Indeed, the best description the administration has 
proposed to date was actually made by one of President Obama's 
advisors who said of Libya that the President is ``leading from 
behind.''
    It is unclear why the administration has not taken a 
stronger stance against a regime that, if it were to fall, 
could significantly alter the strategic landscape of the 
region. Although many questions remain about what government 
would follow the Assad regime were it to fall, there are many 
steps that the U.S. could be taking at this time to influence 
that outcome. The half-committed approach that the 
administration has taken to date, however, does not make sense 
in any circumstance and risks squandering a huge strategic 
opportunity for the U.S., not to mention helping to end the 
bloodshed that intensifies every day.
    Another recent development should give all of us reason for 
concern. I returned earlier this week from a visit to Israel, 
Jordan, and Egypt and, while in Israel, the news broke that 
Hamas had signed a reconciliation deal with Fatah. I was, in 
fact, discussing with Palestinian Prime Minister Fayyad his 
tremendously important state-building efforts when the deal was 
likely signed. Shortly thereafter, I had the opportunity to 
meet with Israel Prime Minister Netanyahu who expressed grave 
concern both for Israel's security as well as for the prospects 
for peace. How, he asked us, could the Palestinians be serious 
partners for peace if they welcomed into their ranks vicious 
terrorists who continue to deny the very right of the State of 
Israel to exist? His concern is more than justified.
    I was deeply disturbed to learn just this morning that at a 
meeting in Rome on the situation in Libya, Secretary Clinton 
did not rule out the prospect of negotiations with an entity 
which may include Hamas. I find this shocking, especially in 
light of what she said on the same subject as a Senator, and I 
quote:

        ``We are withholding money from the Hamas government, 
        which I think is absolutely appropriate, and we are 
        trying to ensure that no country gives any funding to 
        Hamas government unless and until they renounce 
        violence and accept Israel's right to exist.''

    I sincerely hope that the Obama administration is not even 
considering negotiating with Hamas or with any government in 
which it is a partner until or unless it meets the principles 
laid out by the Quartet in 2006. We must insist that it meet 
these principles before their role, however small, is 
legitimized. I look forward to hearing the witnesses clarify 
U.S. policy toward Palestinian reconciliation.
    While the details of the Hamas Fatah agreement have yet to 
emerge, I hope that, in contrast to what I fear, the 
Palestinian leadership will proceed on a path to responsible 
state building and forgo the tired path of rejectionism.
    And that concludes my statement.
    Since the ranking member is in New York today with the 
President and therefore unavailable to be here, I don't know if 
the gentlelady might like to make a statement or not. I don't 
want to put you on the spot.
    Ms. Schwartz. That is fine.
    I just want to say that, having run into the hotel and we 
were both in Israel--we were in Jerusalem. Obviously, both of 
us have keen interests in the future security and safety of the 
State of Israel and were there at a particularly interesting 
moment when the Palestinian Authority, Fatah did reach this 
agreement, again without much detail, with Hamas; and we then 
were able to meet with both the Israeli leadership and some of 
the Palestinian leadership.
    But, of course, we are very interested to see how this 
plays out and are interested in your comments and background as 
you see it today, which we know could change tomorrow. But our 
understanding is that we heard when we were there is that we 
might get Hamas--the Palestinian Authority thought they would 
get Hamas to agree on some level of nonviolence but not on 
recognition of Israel, not on any of the other principles of 
the Quartet. So that seems to us inadequate, in spite of the 
fact that so many Israelis live every day with the fear of 
violence, of rockets, and suicide bombers. So I look forward to 
the comments.
    My expectation is that there will be other hearings as we 
follow this through. But know that our relationships with 
Israel are strong, and we are determined for a two-state 
solution that actually does create real safety and security in 
what, if anything, has gotten to be a more volatile part of the 
world.
    So I look forward to your comments and will stay as long as 
I am able to. Sorry, the afternoon probably got away from the 
chairman here in how many members are attending. But I look 
forward to your comments.
    Mr. Chabot. Would the gentlelady yield for just a moment?
    Ms. Schwartz. Sure.
    Mr. Chabot. On what you had said about some level of 
nonviolence, just to clarify, you said I think you thought it 
would be inadequate, correct?
    Ms. Schwartz. I don't have any information about the 
specifics. What we did hear is that there would be some 
understanding about whether--about incitement or whether 
actually commitment to nonviolence. Now what that means, I said 
I am suggesting that, without any details, we don't know what 
that really means and whether there is a commitment.
    Mr. Chabot. I didn't know if you said adequate or 
inadequate, and I was trying to clarify that.
    Ms. Schwartz. I said probably not adequate. I am suggesting 
that it is not adequate.
    And, honestly, my own feeling is that, unless there is an 
agreement to at least at some point recognize the State of 
Israel, the whole deal is inadequate. But that is not for us to 
decide, except for the point of view of aid, but it is 
certainly--those are decisions to make. But the point of view, 
it is going to have to be Israel's decision to whether they 
consider that worthy of any kind of further discussion.
    I think my feeling when I was there was that this did not 
help enhance the opportunity for negotiations and settlement 
talks.
    Mr. Chabot. Thank you very much.
    The gentleman from Virginia is recognized to make a short 
opening statement, if he would like to.
    Mr. Connolly. Thank you, Mr. Chairman.
    I have a prepared opening statement, and I would ask 
without objection to be entered into the record.
    Mr. Chabot. Without objection, so ordered.
    Mr. Connolly. And I simply want to note--and thank you for 
holding this hearing--we are looking at a transformative 
moment, obviously, in the region; and it remains to be seen 
where this all leads. I have to admit I am troubled by the 
recent reconciliation agreement between Hamas and the 
Palestinian Authority because of its implications both for our 
concern about terrorism in the region, for the recognition of 
the State of Israel, and for the peace process itself; and it 
remains to be seen whether this is really a workable agreement 
in terms of logistics on the ground.
    So I am very interested, obviously, in that set of 
questions but also on the post-bin Laden world with the 
events--dramatic events of this last week. What does that mean 
as we move forward? And what is the long-term staying power of 
any kind of indigenous democratic movement in North Africa and 
in the Middle East that certainly has started with a lot of 
hope? And we have to stay vigilant in terms of where it all 
leads, Mr. Chairman. So I think this is a timely hearing, and I 
am certainly interested in the views of our two witnesses, and 
I want to thank you for holding it.
    And, with that, I yield back.
    Mr. Chabot. Thank you very much. The gentleman yields back.
    I would like to introduce our two distinguished witnesses 
here this afternoon. I will begin with Mr. Michael H. Posner.
    Mr. Posner was sworn in as Assistant Secretary of State for 
the Bureau of Democracy, Human Rights, and Labor on September 
23, 2009. Prior to joining the State Department, Mr. Posner was 
the Executive Director and then President of Human Rights 
First. He played a key role in proposing and campaigning for 
the first U.S. law providing for political asylum which became 
part of the Refugee Act of 1980 and was a member of the White 
House Apparel Industry Partnership Task Force.
    Before joining Human Rights First, Mr. Posner was a lawyer 
in Chicago. He received his J.D. From the University of 
California Berkley Law School and a B.A. With distinction and 
honors in history from the University of Michigan.
    And we welcome you here this afternoon, Mr. Posner. I will 
go ahead and make the other introduction first, and we will 
hear from you.
    Ms. Tamara Wittes was sworn in as a Deputy Assistant 
Secretary for Near Eastern Affairs on November 9, 2009. She 
coordinates democracy and human rights policy for the Bureau 
and supervises the Middle East Partnership Initiative and the 
broader Middle East and North Africa Initiative.
    Before joining the State Department, Wittes was a Senior 
Fellow at the Saban Center for Middle East Policy at the 
Brookings Institution. Before that, she served as Middle East 
Specialist at the U.S. Institute of Peace and previously as the 
Director of Programs at the Middle East Institute in 
Washington. She also taught at Georgetown University and was 
one of the first recipients of the Rabin-Peres Peace Award 
established by President Bill Clinton in 1997.
    She holds a B.A. in Judaic and Near Eastern studies from 
Oberlin College and an M.A. and Ph.D. in government from 
Georgetown University, and we welcome you here this afternoon 
as well.
    As I am sure the witnesses know, we operate under the 5-
minute rule, and we ask that you please try to keep your 
testimony to that 5 minutes, and your entire statements can be 
entered in for the record. So, even if you have more than 5 
minutes we will definitely get that.
    So, without further ado, Mr. Posner, you are recognized for 
5 minutes.

    STATEMENT OF THE HONORABLE MICHAEL H. POSNER, ASSISTANT 
 SECRETARY, BUREAU OF DEMOCRACY, HUMAN RIGHTS, AND LABOR, U.S. 
                      DEPARTMENT OF STATE

    Mr. Posner. Thank you, Mr. Chairman, and thank you for 
holding this hearing. We have a longer written statement which 
we will submit for the record.
    Mr. Chabot. Thank you. Without objection.
    Mr. Posner. I want to, first of all, thank you for inviting 
us to testify on this important subject at this important 
moment. You rightly recognize that this is a pivotal moment in 
the Middle East and North Africa.
    President Obama has said often that the future of the 
Middle East will be written by its own people, not a foreign 
power. But we have a huge stake in the outcome. So this 
administration is playing a critical role in supporting the 
forces of democratic reform, and we are standing with those in 
the region who are calling for a peaceful democratic transition 
for tolerance, for pluralism. As you said, Mr. Chairman, people 
in the region are demanding life, liberty, and the pursuit of 
happiness.
    Our policy is pragmatic, and it is in keeping with American 
principles, values, and interests. We believe that when people 
talk about a conflict between our democratic values and our 
desire for stability, that is a false dichotomy. The United 
States has a profound interest in regional stability, including 
the well-being of Israel, which several of you have mentioned 
and which remains our close critical ally; and we believe that 
respect for human rights and principles of accountability are 
actually key components in long-term stability.
    My colleague, Tamara, is going to talk more about some of 
the U.S. interests, but our strategy is one of empowerment. We 
support and empower those in the region who are committed, as 
we are, to peaceful and democratic transitions.
    Secretary Clinton has spoken a number of times about the 
need to build sustainable democracies; and some of the elements 
are rule of law, transparency, accountability, the existence of 
civil society, representative political parties, women's 
empowerment, and a healthy relationship between government and 
the private sector. These are essential building blocks. In 
places like Egypt and Tunisia, we are hard at work in trying to 
help people in those countries build those essential 
ingredients.
    We also believe that Internet freedom is an essential 
ingredient; and we are actively involved at the State 
Department in both diplomatically advancing notions of an open 
Internet platform--it played such an important role both in 
Tunisia and Egypt. We are also spending money that Congress has 
appropriated to develop both new technologies to circumvent 
firewalls but also to protect activists. We have trained 5,000 
democracy activists in the Middle East and all regions of the 
world, and we are about to allocate new funds for that.
    We also believe that there is a relationship between 
building institutions of democracy that are accountable and 
supporting economic policies that deliver growth.
    And, finally, when violations occur, as they have in Syria 
and other places, we are committed to and are speaking out 
about the human rights abuses as we see them.
    You mentioned, Mr. Chairman, the situation in Syria; and I 
want to just take a few sentences and say something about that.
    President Obama, Secretary Clinton, and many of us have 
spoken out about the killing, torture, detention, and abuse of 
peaceful protesters in Syria. The situation in that country has 
gone from bad to worse, and we are committed to challenging 
that in every way that we can.
    We led an effort 10 days ago at the United Nations to have 
a special session called and have a resolution condemning the 
violations of human rights in Syria--first time that has ever 
happened--and there is now a U.N. investigation and report of 
what is happening. We have unilaterally issued an executive 
order with specific targeting of individuals and entities 
responsible for human rights violations, and we continue to 
monitor the situation, which is increasingly unstable. Our 
Ambassador there, Robert Ford, has conveyed our grave concerns 
to the Syrian Government at the highest levels virtually on a 
daily basis.
    So we share your concern. We are very mindful of the 
severity of the situation. Peaceful protesters, people who are 
challenging the government there, are being gunned down; and 
that is totally unacceptable. We have said that. We will 
continue to say it, and we will continue to find allies in 
Europe and elsewhere to help reinforce that message.
    Thank you.
    Mr. Chabot. Thank you very much, and we will now hear from 
Ms. Wittes for 5 minutes.

  STATEMENT OF MS. TAMARA WITTES, DEPUTY ASSISTANT SECRETARY, 
    BUREAU OF NEAR EASTERN AFFAIRS, U.S. DEPARTMENT OF STATE

    Ms. Wittes. Thank you, Mr. Chairman.
    I also want to express my appreciation for the invitation 
to testify on this crucial subject.
    Secretary Clinton has noted that when there is a gap 
between a government and the needs and the aspirations of its 
people that state will become more brittle rather than more 
stable. And in the Middle East that gap has been widening in 
many places for some time. The Arab Spring, therefore, carries 
the potential for citizens in the region to build societies on 
a more stable foundation, more democratic, more economically 
dynamic, and more capable of tackling their own challenges.
    The task of achieving that brighter future rests in the 
hands of the people and leaders of the region, but the United 
States has a strategic interest in their success, and we can 
play a key role.
    Now, the United States remains steadfast in our commitment 
to advancing our core interests in the region and defending the 
security of our allies. Those interests, including countering 
violent extremism and achieving a negotiated Middle East peace, 
are widely shared by citizens across the region seeking peace, 
prosperity, and freedom.
    Regional stability, of course, has always been a key factor 
in our ability to pursue those goals, and today it is crystal 
clear that stability in this region demands democratic reform. 
The changes under way in the region were driven by a rising 
generation unwilling to accept a status quo that denied them 
the opportunities they deserved and a status quo that they knew 
was unsustainable. That is a situation characterized by 
corruption, inequality, unemployment, resource depletion, and 
political marginalization.
    The success of these new movements for greater democracy, 
opportunity, dignity, and accountability will be a sine qua non 
for the region's ability to overcome its longstanding 
political, economic, and social challenges; and in this way the 
outcome of the Arab Spring will have a powerful and lasting 
impact on regional stability for years to come.
    But events in the region today also present a tremendous 
strategic opportunity for the United States and all those who 
advance a positive agenda for the future of this region. The 
peaceful, homegrown movements that put Egypt and Tunisia on the 
path to democratic transition offer a powerful repudiation of 
the extremists' false narrative that violence and conflict are 
the only ways to effect change. And since we wholeheartedly 
embrace the positive potential of this region, we likewise 
embrace those who seek to realize that potential through 
peaceful democratic reform.
    Our response to the upheaval in the region is rooted in a 
consistent set of principles, as my colleague said. We oppose 
the use of violence against peaceful protesters and support the 
universal rights of free expression, assembly, and association. 
We strongly condemn killing, torture, and abuse of peaceful 
protesters; and we make clear our view that people's legitimate 
demands and aspirations must be met by positive engagement from 
governments in the form of meaningful political and economic 
reform.
    Certainly there will be great challenges ahead in countries 
undergoing democratic transition. We are encouraged to see 
governments elsewhere in the region taking affirmative steps to 
address their citizens' concerns, but there are more 
challenging scenarios where calls for democratic reform are 
held back or met with violence and there is the risk of 
backsliding or the derailment of progress.
    And, Mr. Chairman, you mentioned Palestinian 
reconciliation. Let me be very clear. We certainly understand 
the concerns you have raised. There has been a deal signed, but 
there are many steps left to implement that agreement, and we 
are monitoring it closely. But, from our perspective, it is 
absolutely clear that, in order to play any constructive role 
in achieving peace, any Palestinian Government must accept the 
Quartet principles. They must reject violence, accept Israel's 
right to exist, and agree to abide by previous agreements.
    We will continue to stand up firmly for our principles and 
our interests in this region. As citizens and leaders in the 
Middle East move toward democratic change, we will support 
their efforts. We believe in their potential, and we look 
forward to a day when all the citizens of the region are able 
to have their voices heard, their rights respected, and their 
aspirations met. We believe that that will be a brighter future 
and a more stable future, one that works for them and for us. 
We look forward to continuing to work with this committee and 
with the Congress to make that future a reality.
    Thank you.
    [The prepared statement of Mr. Posner and Ms. Wittes 
follows:]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Chabot. Thank you very much.
    It is my understanding that the gentlelady from New York 
has a codel to catch, and so I am going to defer my questions 
so she can get them in before she has to leave.
    So the gentlelady is recognized for 5 minutes.
    Ms. Buerkle. Thank you, very much, Mr. Chairman; and thank 
you for holding this very relevant hearing today and thank you 
to our guests.
    My question--and I will get right to the point--is with 
regard to the Muslim Brotherhood. I would like you to please 
explain to me what you see their role is in the Middle East. We 
are hearing concerns from Egypt, from Israel, and from Jordan 
as to they are gaining power. And I would like to hear what the 
administration, what your thoughts are about the Muslim 
Brotherhood.
    Ms. Wittes. Well, thank you, for the question. I think it 
is a very important issue to raise, and it is one that we are 
follow closely.
    The Muslim Brotherhood in Egypt abandoned violence in the 
1970s. Since then, they have played a role in politics, but 
their views have not always been clear. And what we are looking 
to see emerge in Egypt is a diverse political marketplace where 
people will face a real choice and where organizations like the 
Brotherhood and other political parties are challenged to make 
their views clear, including on core democratic principles: 
Rejection of violence, the embrace of democratic values and 
rules, both before and after the election, and a commitment to 
equality for all under the law, including women and minorities. 
Those are the requisites to play a constructive role in the 
democratic process.
    Ms. Buerkle. As a follow-up to that, does the 
administration--are they opposed to the Muslim Brotherhood, 
their power, and them expanding their power in Jordan?
    Ms. Wittes. Well, in Jordan, the Muslim Brotherhood is not 
itself politically competitive. There is a political party, the 
Islamic Action Front, which has some links to the Brotherhood 
which is a recognized political party and competes in Jordanian 
elections. They have been a part of the political scene there 
for some time.
    Ms. Buerkle. And I think, as a follow-up, we have heard 
from many of their concerns regarding the Muslim Brotherhood, 
and I would like to know if the administration sees them as a 
moderate group or as a group that is really a threat as what we 
have heard from--testimony we have heard from folks from Israel 
and the like.
    Ms. Wittes. I think from our perspective what is important 
is that we see a diversity of views and voices and that we see 
all of those who want to participate in the democratic process 
embracing democratic principles. It is a concern for the 
process and a concern for the integrity of the democratic 
process. It is not for us to choose the winners of those 
political competitions. That, obviously, is for the people in 
the region to make that choice, but we want to see them make 
that choice within a free and fair and competitive context.
    Ms. Buerkle. So as a follow-up to that, do you see the 
Muslim Brotherhood as an organization that would allow that 
process to play out or what be a threat to the freedom, to the 
very thing that these people are fighting for?
    Well, I will let you comment on that, and I will follow up.
    Ms. Wittes. Thank you. I think as the situation in Egypt 
continues to evolve and as the Egyptian people start to prepare 
for their elections, there are already a number of new 
political parties forming and organizing, there are a lot of 
debates swirling around the role of religion and politics, and 
I think that we are already seeing the Egyptian people engage 
robustly in this discussion. So that process is going to 
continue to play itself out; and, of course, we will be 
watching it closely. But, ultimately, it is up to the Egyptian 
people to determine their future.
    Ms. Buerkle. Thank you very much. I yield back.
    Thank you, Mr. Chairman.
    Mr. Chabot. The gentlelady yields back.
    The gentlelady, Ms. Schwartz, is recognized for 5 minutes.
    Ms. Schwartz. Thank you. Thank you for the opportunity for 
questions.
    I wonder if you could speak a little bit more following up 
on the previous questions about the situation in Egypt, and I 
would say a couple questions, if I may. One is on how prepared 
they are for elections in September. There is some sense that 
some of the points you are making in terms of new and emerging 
parties, how quickly can they be organized, how substantial 
they can be, how competitive they can be?
    Of course, I agree with you this is up to the people of 
Egypt to make these decisions for their future, but, as we 
encourage democratic reforms, we don't want them to be 
unprepared for those reforms. We know that that is not going to 
bode well for good decision making for them, and so I don't 
want us to push too hard to lead in that direction.
    And, secondly, the word is to--we originally had heard that 
Egypt was going on abide by previous treaties. Have you heard 
otherwise? There is obviously deep concern in Israel about the 
border with Gaza, whether, in fact, that will be open, whether 
that would then lead to weapons, munitions, other supplies 
coming into Gaza that would potentially enhance the opportunity 
for violence and destruction?
    So let me start there, and then if there is an opportunity 
for a follow-up I would be pleased to be able to.
    Mr. Posner. Thank you. Let me answer the first set of 
questions first.
    I think what we have seen over at least 30 years in Egypt 
is an ossification of all institutions, including political 
institutions. And so as transition now is under way, one of the 
challenges Egyptians face, particularly young people and others 
who took to the streets, is that they don't have experience 
with political parties. They don't--they haven't had the 
ability to do political polling or to organize to do 
electioneering. And so we are very much involved. Congress has 
and we have made available as part of our bilateral funds to 
Egypt to go to groups like NDI and IRI to begin that building 
process, building the foundation for sustainable democracy in 
Egypt. It is not going to happen overnight, but it is 
critically important.
    There is an important segment of Egyptian society, secular, 
reform-minded, democratic, concerned about the future of their 
own country; and they want and are eager to build the skills to 
play a vital role in a political process that will lead to a 
democratic Egypt.
    Ms. Schwartz. Will that happen in 6 months?
    Mr. Posner. I think it is going to be a real challenge. I 
think we are in a transitional phase. I think realistically to 
have elections in 6 months, both for Parliament and the 
President, strains a system that is in a very embryonic state. 
And so I think we need to be quick and resolute in trying to 
help right now, but we also need to be mindful that, over time, 
we have got to stay the course and this is going to happen over 
a period of years.
    I am optimistic in the long term we can get there, but I 
think we shouldn't delude ourselves into thinking that it is 
going to look like the United States or Western Europe in a 
matter of months. And so I think we are committed to helping 
those Egyptians that share our democratic aspirations, and we 
know that it is going to be a process for them to learn, to 
build their capacity, to build their constituencies, and over 
time to have the role they deserve in Egypt.
    Ms. Schwartz. Just related to those points, do you have 
some sense of how much Iran is trying to play into influencing 
parties that could evolve, that would be more sympathetic to 
their position and anti-West and anti-democratic, ultimately?
    Mr. Posner. We are always mindful and wary of the 
intentions of Iranian Government.
    Ms. Schwartz. As we should be.
    Mr. Posner. And that is certainly an aspect, it is a 
feature in many of these countries.
    I think our primary focus, though, right now, is the need 
to be in building that capacity, that democratic capacity that 
Egyptians themselves want. They want the same kinds of 
opportunities people have in this country, economic and 
political opportunities. We can help reinforce their own 
aspirations and desires.
    Ms. Schwartz. I have 1 minute left, but maybe we could 
answer the question about the treaties, the treaty with Israel 
and the border on Gaza.
    Ms. Wittes. Absolutely. Thank you. This, obviously, is an 
issue of core concern for us as well as for our Israeli allies.
    The interim government announced almost immediately that 
they would continue to respect their international commitments. 
That was an announcement that we welcome, and we expect them to 
hold to, and I think that is going to be an important element 
for us to see in any future Egyptian Government as well.
    During this interim period, we have seen the Government of 
Egypt continue to uphold those commitments, engage with Israel 
on important issues, including security, and also continue to 
work to stop arms smuggling through Egyptian territory.
    Ms. Schwartz. Thank you. I believe my time is up. I yield 
back.
    Mr. Chabot. The gentlelady yields back.
    The gentleman from Illinois, Mr. Manzullo, is recognized 
for 5 minutes.
    Mr. Manzullo. Thank you.
    The President and the rest of the people in the State 
Department in various positions wasted no time in condemning 
Mubarak, asking him to step down. The same with Qadhafi, made 
statements hinting at the peaceful removal of the leader of 
Yemen, and yet the Arab country that suffered perhaps the most 
casualties, at least recorded, is Syria. And aside from 
condemning the violence, which is easy, because no one likes 
violence, the President has made no overtures to ask Bashar to 
step down.
    Only a couple days ago, the Obama administration issued an 
executive order freezing the assets of three top Syrian 
officials, most notably Maher al-Assad, who is President 
Assad's brother. I realize in this crazy world you have to pick 
and choose your friends. But I am a little bit miffed as to why 
the United States is apparently not taking harsher action or 
asking Bashar to leave office.
    Do either of you two have any comments on that?
    Mr. Posner. Congressman, one of the things that the 
President said--I want to quote his words. He said, ``This 
outrageous use of violence to quell protest must come to an end 
now. We strongly oppose the Syrian Government's treatment of 
its citizens. We continue to oppose its continuing 
destabilizing behavior more generally, including support for 
terrorism and terrorist groups.''
    Those are statements that aren't made lightly or easily.
    Mr. Manzullo. I understand that. But he didn't ask him to 
step down.
    Mr. Posner. Well, what we have done, as you indicated, is 
to impose now unilateral sanctions. We also led an effort at 
the United Nations to have Syria condemned by the international 
community for the first time, and that happened in the last 2 
weeks.
    Mr. Manzullo. I understand that. But why doesn't the 
administration ask him to step down?
    Mr. Posner. I think we are at a point now where we are 
constantly reevaluating the policy. As the violence escalates, 
we are going to explore options; and we are going to also take 
our lead from what is happening in the country and what people 
there are saying and doing. We have made it very clear that we 
are utterly condemnatory of the violence.
    Mr. Manzullo. I understand that. I read the words and 
quoted them myself. I just think it is inconsistent.
    Mubarak left and who is left but the Muslim Brotherhood? 
You have to sometimes wonder what you ask for. And the Middle 
East is ablaze right now. But I don't see that much pressure on 
Syria. I don't see the President asking for his removal, asking 
for him to step down, when he was not reticent to do that with 
regard to the other leaders I mentioned.
    Mr. Posner. Well, I would take exception to two things you 
just said. One is, I don't think the only thing that is an 
alternative in Egypt is the Muslim Brothers. There is a 
significant democratic movement in Egypt that we are supporting 
and need to support which seeks to have a peaceful, democratic, 
rights-respecting----
    Mr. Manzullo. I understand. I want to return to Syria.
    Mr. Posner. Yeah. But with respect to Syria, we are very 
mindful of the severity of the situation.
    Mr. Manzullo. I understand that. I am trying to get an 
answer as to why the President is not as forceful with Syria as 
he has been with other Arab countries.
    Ms. Wittes, do you have a response to that?
    Ms. Wittes. Congressman, thank you.
    I think it is important to note that, in addition to the 
steps that we have taken on our own, we have been working to 
mobilize the international community on this issue as well. 
And, as you know, Syria has relationships that are in some ways 
more multifaceted with other international partners. So it is 
very important for us to work together with them.
    With our own action, with the executive order on Friday, 
our hope is to galvanize the European Union as well.
    Mr. Manzullo. I understand that. Here is a guy that has got 
snipers shooting innocent people. A bullet went through the eye 
of a little 4-year-old. I think the message is, there is any 
message at all, it is very inconsistent, that America is giving 
Bashar a pass. And you can have all the diplomatic language you 
want, you can have all the--so he is a bigger shot than the 
other people. Apparently, he is acceptable.
    Mr. Chabot. The gentleman's time has expired. Does the 
gentleman seek additional time?
    Mr. Manzullo. I do.
    Mr. Chabot. The gentleman gets another minute.
    Mr. Manzullo. Thank you.
    Can somebody give me a better response--not a better, a 
more complete response? Does the United States want him out, 
Bashar out?
    Ms. Wittes. Congressman, I think it is important that as 
this situation across the region has evolved, and it has 
evolved very quickly, that we look at each country and each 
environment on its own terms. The environment in Syria has been 
deteriorating significantly over the last couple of weeks; and 
I think as you look at the range of actions that we have 
taken--I see us escalating our activity----
    Mr. Manzullo. But how many more people have to die before 
the President acts? I think more people have died now in Syria 
than died in Libya before the President acted.
    Ms. Wittes. I think what we saw in Libya was a situation in 
which there was the real threat of mass violence.
    Mr. Manzullo. So there is no threat of mass violence with 
over close to 600 people being killed in Syria?
    Mr. Chabot. The gentleman's time has once again expired.
    Would the lady like to answer the question? Or you have 
already answered it? Thank you.
    The gentleman from Virginia, Mr. Connolly, is recognized 
for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman.
    And let me pick up where my friend from Illinois just left 
off, though, Ms. Wittes. How do we square the apparent 
inconsistency in our policy, U.S. policy, with respect to Egypt 
on the one hand and Libya and Syria on the other?
    I think we have got some explaining to do to the American 
public. I mean, if the differences are self-evident to you and 
the administration, they are not to us or the public.
    Ms. Wittes. Thank you, Congressman. I think it is an 
important and valuable question.
    I think that in our response across the region, we have 
been rooted in a consistent set of principles: Number one, that 
peaceful protesters have to be dealt with peacefully and cannot 
be met with violence; that people have to enjoy their 
fundamental human rights to free expression, free assembly, 
free association, and to have a right to have a say in how they 
are governed; and, number three, that these aspirations, these 
demands that are being expressed by citizens across the region 
have to be met by governments in the region with meaningful 
political and economic reform that is done through a peaceful 
political process, a process of dialogue, a process of 
inclusion. That has been our consistent approach across the 
region. Now----
    Mr. Connolly. Let me ask you a question, because my time--I 
know the chairman is going to give me 1 extra minute, but still 
we are going to run out of time, unfortunately, and I really 
would love to continue this. But has the administration called 
for regime change in Damascus?
    Ms. Wittes. No, we have not.
    Mr. Connolly. Thank you. And I think that is really Mr. 
Manzullo's point, that there seems to be a discrepancy between 
our approach--we even called for Hosni Mubarak to step down, 
and it is passingly strange that we have not done the same in 
Damascus.
    Mr. Manzullo. Or Bahrain.
    Mr. Connolly. Let's make a footnote we have got to revisit 
that issue at some point.
    Mr. Posner, you made some talks about the atrophying of 
institutions that intrigued me. Because one of the things that 
struck me about Egypt when it was sort of hot and heavy was the 
eerie resemblances to Iran in this respect; that U.S. policy 
seemed to have been complicit or acquiesced in the lack of any 
political space being created in the opposition--let alone it 
being viable sufficient to actually govern.
    And the problem is, in an autocratic regime, inevitably it 
will crumble, and if there has been no political space created 
for some kind of viable opposition into that vacuum, others can 
exploit opportunities. It happened in Russia in 1917. It 
certainly happened in the Iranian Revolution after the fall of 
the Shah.
    I just wonder if you, given your unique portfolio, what 
your observation is about that moving forward? What have we 
learned about that as a country in terms of our diplomacy?
    Mr. Posner. Thank you, Congressman.
    I think one of the things--I went to Egypt 1 year ago 
January to look at some of the programs that our office is 
supporting and some programs that the MEFI office that Tamara 
oversees, is supporting. We have over the years been, in fact, 
quite eager to support exactly those independent voices that 
you are describing.
    And one of the reasons why, in the long term, I am 
optimistic about Egypt is that there is a very vital society 
there, a very vital civil society. There are a range of groups 
working on women's issues, working on human rights issues, 
working for children, working on environment, a range of other 
things; and the United States Government has been in contact 
with those people and supportive of their continuity.
    It hasn't been an easy process, and now we are in a 
different place where those groups have more opportunity to 
grow and to thrive. And, in addition, there is really the 
ability now to build political parties in a proper democratic 
space.
    So I think that is--I think we--could we have done more? We 
could have. But I think we have done a lot. We are now very 
focused on what needs to be done going forward, and I think 
there are a number of Egyptians who I met 6 weeks ago there who 
are eager to work with us and to benefit from our assistance 
and our experience.
    Mr. Connolly. I guess I would add one more thing to your 
list; and that is the military. Big difference between the--
even though we had close relationships with the Iranian 
military as well. In Egypt, in a sense, it was a force for 
stability but also played a cushion between uprisings or 
demonstrators and the police. It actually protected the 
civilian population.
    Mr. Chairman, I would request the extra minute.
    Mr. Chabot. The gentleman without objection is granted an 
additional minute.
    Mr. Connolly. I thank the chair.
    Back to you, Ms. Wittes. Just real quickly, does the United 
States support the agreement between Hamas and the PA that was 
hammered out in Cairo?
    Ms. Wittes. Thank you for the question, Congressman.
    I think our clear position is that any Palestinian 
Government, if it wants to play a constructive role in the 
peace process, needs to accept the Quartet principles. We have 
yet to see what government may emerge out of this agreement, 
whether this agreement sticks, but it is clear what we are 
looking for, which is for the members of that government to 
agree to reject violence, accept Israel's right to exist, and 
embrace peace agreements.
    Mr. Connolly. Yes. And the Israeli Government in the form 
of its prime minister made it very clear that they see this as 
disastrous for the peace process and for Israel moving forward. 
Do we share that view?
    Ms. Wittes. We share the concerns, and we are going to be 
monitoring this very closely.
    Mr. Connolly. Thank you.
    Mr. Chabot. The gentleman yields back, and I now recognize 
myself for 5 minutes for questions. I might note--or 6.
    And I would note, following up on the gentleman from 
Virginia's question, that clearly I agree with the Israeli 
Prime Minister. I think it is disastrous for the peace process, 
personally. But I will get into that later, potentially, if we 
have a second round.
    But, as I mentioned in my opening statement, I returned 
earlier this week from a visit to the Middle East. While in 
Israel, I had an opportunity to travel to Jericho and the West 
Bank and toured the Joint Operations Center under the command 
of the U.S. Security Coordinator, General Michael Moeller. The 
USSC is charged with working with the Palestinian Authority to 
train locals to provide security in their own West Bank 
community.
    I must say that I was very much impressed with both the 
leadership of General Moeller and his team and the 
professionalism shown by Palestinian officials at the Center. 
It is very encouraging to observe the building of fundamental 
institutions of a state that we hope will one day soon be able 
to live side by side with Israel in peace. Although, as I just 
stated, I am very skeptical about this reconciliation with 
Hamas involved.
    It was only a day earlier, however, that I was meeting with 
Daniel Ayalon, Israel Deputy Foreign Minister, when we received 
news of this Hamas-Fatah reconciliation. The Palestinian Anti-
Terrorism Act of 2006 explicitly forbids U.S. funding of a 
Palestinian Authority Government which includes Hamas members 
unless or until it fulfills numerous obligations, including the 
three Quartet principles, as has been mentioned here already: 
Recognizing Israel's right to exist, renunciation of violence, 
and acceptance of past agreements.
    In short, until Hamas ceases to be Hamas, the United States 
is legally barred from assisting any entity which contains it. 
It would be extremely unfortunate if this reconciliation 
rendered the Palestinian Authority's state-building effort 
moribund, and yet it appears it would do just that.
    Throughout all of this, however, the administration has 
been notably quiet. I know we have talked some today, but, 
other than that, quite quiet, with the exception of Secretary 
Clinton's unfortunate remark, with I mentioned in my opening 
statement.
    What is the administration's policy toward this 
reconciliation? And we have been talking about that. Is it, as 
I hope, working to ensure that Hamas has no role in both the 
Palestinian Government as well as in the PLO? It is not, I 
hope, considering negotiation or asking that Israel negotiate 
with any bodies which include Hamas members. How can we ask 
Israel to make peace with an organization that continues to 
target its civilians with indiscriminate rocket fire?
    The situation in Syria continues to spiral out of control, 
and we have been talking about that as well. Bashar al-Assad, 
far from the reformer some of us once considered him, has shown 
himself to be a ruthless despot willing to murder his own 
people in order to continue to repress them. Despite this, the 
administration I believe continues to take only piecemeal steps 
that hardly tell Assad or the broader region that they cannot 
mow down their own citizens who are merely peacefully 
protesting for their universal rights.
    Just the opposite. Our, as I mentioned in my opening 
statement, I believe tepid response--and I think we are hearing 
that from both sides here today, that there are concerns about 
this--that response sends a signal to the world's despots that 
we will only respond to brutal crackdowns with symbolic but 
ineffective measures.
    Beyond the moral dimension, Syria has for decades shown 
itself to be one of the most malign actors in the region. It 
continues to closely align with Iran, who is assisting it in 
its crackdown. It facilitates a free flow of weapons across its 
borders to Hezbollah in southern Lebanon, and for years it 
ushered across the Iraqi border jihadis who killed countless 
Iraqis and our own servicemen and women.
    Damascus also hosts the headquarters of a number of 
international terrorist organizations, including Hamas.
    Although many questions remain about what government would 
follow Assad should the regime fall, there are many steps that 
the U.S. could be taking at this time to influence that 
outcome.
    It is also noteworthy that the administration has not yet 
spoken of withdrawing its recently appointed Ambassador in 
Damascus, Robert Ford, or of kicking out the Damascus 
Ambassador in Washington.
    So, again, just following some of the questions of some of 
my colleagues, I hope the administration will take back there 
is considerable concern here, at least in this committee, about 
much tougher action with respect to Syria.
    And I welcome any comment from either.
    Mr. Posner. If I can, just one comment on your last point. 
I don't think there is any difference between us in terms of 
the severity of the situation. We are mindful, we are watching 
it, we are monitoring it, we are reporting on it every hour of 
every day.
    Ambassador Ford has been for us a vehicle, an individual 
who can reach out both to the Syrian Government at the highest 
levels but also to reach out to people who are on the receiving 
end of this violence.
    I worked for many years, as you indicated in the outset, in 
the nongovernmental world. And one of the worst things that can 
happen in a situation where thousands of people are being 
arrested, where they are being shot, where they are 
disappearing, where there are all these violations going on, 
people want to know that governments like the United States are 
there, meeting with them, aware of what they are facing, and 
trying to help them in a day-to-day way. Ambassador Ford, that 
is what he is doing every day. He is spending long hours 
helping families, meeting with victims, meeting with human 
rights advocates, meeting with journalists, trying to mitigate 
what is a terrible situation.
    So we can have a broader debate about the overall policy, 
but this aspect of it, I think it is right for us to have a 
presence there, it is right for us to have a senior diplomat 
whose role it is really to be our advocate-in-chief in Damascus 
and in Syria fighting for the very principles of human rights 
that you and I are talking about.
    Mr. Chabot. My time has expired; and I recognize the 
gentleman from Florida, Mr. Deutch, for 5 minutes.
    Mr. Deutch. Thank you, Mr. Chairman.
    Mr. Posner, I would like to follow up on the chairman's 
question and your response. Can you lay out in a little greater 
detail how this process works? Ambassador Ford, you said, can 
reach out to those who are on the receiving end of the violence 
and that he has the opportunity to try to mitigate this 
violence. Can you just describe how that works? When having 
these meetings and learning of--and meeting directly with the 
families and hearing directly of the ramifications of these 
actions taken by the Syrian Government and this regime, how 
does that then--how does he then communicate with the regime? 
What does he communicate with the regime? And, ultimately, what 
message are we sending?
    Mr. Posner. We received a report from one of the human 
rights organizations yesterday or today that perhaps as many as 
1,000 people have been arrested since Monday in half a dozens 
cities in Syria. We gather that information. The Ambassador 
takes that information. He meets with these organizations but 
also family members of the people who have been detained. He 
and others in the Embassy then approach the government. It is a 
constant process of both trying to figure out where people are, 
how families can get access, how they can get a lawyer, and how 
they can get released.
    Now, do we succeed in every case in resolving the 
differences? No, we don't. But it is enormously helpful to the 
people who are feeling under horrible strain because they don't 
know where their loved ones are that an Ambassador from the 
United States is there, mindful of their story, ready to meet 
with them, ready to go in and talk to senior officials and say 
we are concerned about this.
    We do this all over the world. It is not unique to Syria. I 
was in China last week. We have an Embassy. They are very 
dedicated, doing exactly the same thing. We do it in lots of 
countries around the world.
    It is very important to people that are feeling they have 
no authority, no power, no ability to challenge or ask 
questions of their own government that there are influential 
diplomats, especially from the United States, ready to play 
their role.
    Mr. Deutch. And just changing direction for a second, in 
your testimony, you talked about the human rights abuses 
occurring at the hands of the Iranian regime. And I would 
suggest that the wave of democracy sweeping the Middle East 
really began after the 2009 disputed elections in Iran. Yet, in 
more recent times, the opposition movement within Iran has not 
galvanized the same momentum as in other countries throughout 
the region. Can you discuss the state of the democracy movement 
in Iran and what this country is doing and what we ought to be 
doing to empower the opposition?
    Mr. Posner. I think your analysis is correct. Since May 
2009, the Government of Iran brutally has cracked down against 
the opposition. And it has been--I think the hypocrisy of the 
Iranian Government has become all the more clear in the last 
few months as they are cheering on people in other societies 
who are challenging authority while basically brutally cracking 
down on their own dissenting voices.
    We do things both directly and indirectly to try to lend 
support and solidarity to people in the opposition and people 
in the human rights movement, democracy movement in Iran. We 
led an effort at the U.N. in March to have, for the first time, 
a special rapporteur, a special expert on Iran. The government 
fought us like crazy on that. We were really in the lead, and 
we got the U.N. to do that.
    We worked with Iranian dissidents both inside and outside 
the country, hugely dangerous for some of them. We don't 
broadcast all of those associations. But we are trying to 
figure out, for example, how they can get better access to 
information through the Internet. Congress passed the VOICE 
Act, which gives us some resources to begin to open up access 
to information and allow Iranian dissidents to speak among 
themselves.
    There is still a vital movement in Iran, many of them young 
people who are desperate and frustrated beyond belief at what 
they see is a totally autocratic, despotic government. They 
will continue to push, and we will continue to help them.
    Mr. Deutch. To that end, Mr. Posner, we yesterday 
introduced bipartisan legislation to impose sanctions on those 
who aid in the abuses of the opposition movement and further 
human rights abuses within Iran. I would invite you take a 
look. I think it is consistent with the efforts that you have 
just described; and, ultimately, we would be looking to you for 
some additional guidance as well.
    I yield back, Mr. Chairman.
    Mr. Chabot. The gentleman yields back. We are going to go 
into a second round, so the gentleman will get another bite at 
the apple, if he would like.
    So I recognize myself for another 5 minutes, and I am going 
to give a couple of quick questions first.
    First of all, after the Assad regime has killed hundreds of 
Syrians, does the administration believe that the Assad regime 
holds any legitimacy? Yes or no. Or a sentence, if you need a 
sentence, after the yes or no.
    Ms. Wittes. Mr. Chairman, I think the Syrian people are 
looking at the actions of this regime and drawing their own 
conclusions, and I think you see the effect of that in the 
street.
    Mr. Chabot. I didn't hear a yes or no. And I am talking 
about the administration, not what they think. Does the 
administration believe that the Assad regime holds any 
legitimacy.
    Ms. Wittes. Mr. Chairman, I think it is the Syrian's people 
judgment here that is important, and I think they will draw 
their conclusions based on his behavior.
    Mr. Chabot. So the administration isn't taking a position 
at this point, at least from what you are saying?
    Ms. Wittes. We are being guided--as Assistant Secretary 
Posner said earlier, we are being guided by the events we see 
on the ground, and we are reevaluating on a daily basis.
    Mr. Chabot. Okay. Next question. Does the administration 
still believe that Abu Mazen is committed to peace, given the 
fact that he just publicly embraced the leader of Hamas and 
said Hamas did not have to recognize Israel's right to exist?
    Ms. Wittes. Mr. Chairman, I think Abu Mazen--President 
Abbas has over the course of his career exercised a lot of 
leadership on this issue as somebody who is committed to a 
negotiated solution with Israel. This reconciliation agreement 
is something that has yet to play out. We are going to be 
looking at it very closely; and, as I said, we are going to be 
looking for some very specific things before we can make any 
assessment as to what the impact will be on our policy. But I 
think President Abbas' personal commitments that he has made in 
office have been supportive of the process.
    Mr. Chabot. Let me go down a different road here.
    I had a former Arab head of state in my office just 
yesterday, and we talked for a good hour about a whole range of 
issues. He was in the Middle East, although it was in my 
office. And he kept coming--he must have six different times 
come back to the, well, if we can just solve the Israeli-
Palestinian problem, everything else falls into line. And he 
said it over and over again. And I disputed that, and I think 
that has been used as an excuse for the corrupt governments 
that many of the Arab governments have had in the Middle East 
for years, but I would like to see what the administration 
believes about that.
    Mr. Posner. I agree with what you say. There have been a 
number of actions at the U.N. and elsewhere where the Israeli-
Palestinian dispute has become the centerpiece and in some ways 
to the exclusion of so many other problems in the region. And 
what is interesting about events of the last several months is 
that people who took to Tahrir Square in Egypt or to the 
streets in Tunisia and all these other countries are so focused 
on their own future. It is striking how much the focus is on 
how to democratize, how to open up, how to create greater 
opportunities in Syria, in Egypt, in all of these other 
countries.
    So I think we are seeing a change in the region. It is a 
welcome change. There is now on the merits a discussion about 
what governance and what democracy and what the future holds 
throughout the Middle East, and I think we ought to be 
supportive of that.
    Mr. Chabot. Let me conclude--I have only got a short period 
of time left here--on a couple of points, just to wrap this up. 
On both sides I think it is pretty clear that there is 
considerable concern with the administration's lack of greater 
emphasis on Syria, more action there, more affirmative things 
done, when you have the regime that essentially has killed 
hundreds of their own people and probably much worse than that 
over the years. So that is something I would strongly urge the 
administration to look at very closely. I know that they have 
spent time on Libya, considerable time and effort there, but I 
think Syria warrants it.
    Secondly, relative to this reconciliation, I have great 
skepticism. The way it was explained to me by the foreign 
minister of Egypt, who is very excited about this, much more so 
than Prime Minister Netanyahu, obviously, was that you have 
Hamas and you have the Palestinian Authority, and they come 
together and have elections and form some independent entity of 
some sort, and then that is the independent entity that Israel 
is going to negotiate.
    Well, as far as I am concerned, it is a nonstarter. Because 
everybody knows that Hamas is right behind this independent 
entity, and they still haven't met the Quartet's requirements, 
principles, as we know. So, whereas I always hope that peace 
will break out there, I don't really believe it is real.
    And then, finally, relative to Egypt, we met with a lot of 
the young leaders, the people that were on Tahrir Square, we 
met with the generals, we met with a whole range of people, and 
one of the things of considerable concern to me is, first of 
all, Israel's role--or, excuse me, Egypt's role in this 
reconciliation and that they bought into it, but even more so 
their change in engagement with Iran. They seem to be much more 
willing to engage Iran.
    And we all know that Ahmadinejad has essentially said that 
his intention is to wipe Israel off the map. And we also know 
that he seems to be bound and determined to move forward on 
this nuclear program, despite the fact that our allies and the 
United States have been attempting to do this non-militarily 
through sanctions through years now.
    But Iran and Egypt's sidling up to them is of considerable 
concern, I believe. Could you comment on that element, Egypt 
getting closer to Iran and what the administration's attitude 
would be toward that and what we ought to do about it?
    Ms. Wittes. Thank you, Mr. Chairman. I think that is a 
crucial question, and it is one that we are spending a lot of 
time focusing on ourselves.
    We remain deeply concerned about Iran's role in the region, 
its sponsorship of terrorism, its illicit nuclear program, and 
its failure to comply with its own international obligations in 
that regard. And what we see is that, as these events have 
taken place across the region, the Iranians have been seeking 
to exploit them in order to distract from that regional agenda. 
But they have been doing that in a way that I would say has 
exposed their tremendous hypocrisy in claiming to support 
popular movements elsewhere in the region that they think will 
work to their advantage while engaging in brutal repression at 
home and now, as we see, are complicit in Syrian repression as 
well.
    So, from our perspective, the developments in the region 
and the work that we can do to support democratic transition in 
this region will work to Iran's disadvantage. This is part of 
the strategic opportunity that we are presented with here, and 
it is one that we want to pursue.
    Mr. Chabot. Thank you.
    Just let me conclude with one other thing I just want to 
mention on Iran. One of the mistakes I think that the United 
States made was when there was at least a chance it looked like 
the people were rising up that we didn't give them additional 
support. And I know that there was the thinking that if the 
United States gets in they will use the United States and say, 
well, these people are all just--it is the U.S., it is the 
great Satan, it is Israel and all that kind--they are going to 
say that stuff anyway, and they said it then.
    But I think we should have been much more engaged probably 
behind the scenes. But I think we should have given more 
encouragement to those people.
    But the information that we gather is that there is a 
significant, essentially, wiping out of all of the leaders. 
They had cameras, and they are killing people on a regular 
basis over there, and that is something I think we need to do, 
and I know it is somewhat limited what we can do.
    But these people are out there trying to speak out and 
trying to enjoy the same freedoms, maybe not the United States 
to this level, but at least free from this type of regime that 
they have been under for decades now, and the people are one 
after another being wiped out. And that is one of the reasons 
that I think we haven't seen, you know, sweep and fear. If 
there is any country in that region you would like to see this 
happen, it would be Iran. I think they were ahead of everybody 
else, unfortunately; and maybe if it had happened now, maybe it 
would have been different.
    But anyway, you don't have to respond, but to the extent 
that the administration can think about that, I would, as chair 
of this committee, appreciate it.
    And without anything else coming before the committee, 
members will have 5 days to supplement their statements or 
questions.
    If there is nothing further to come before the committee, 
we are adjourned. Thank you very much.
    [Whereupon, at 3:23 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Mi
                               nutes deg.
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Co
                               nnolly 
                               statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre></body></html>
